IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

FILED

No. 19-10571

July 31,2020
Lyle W. Cayce
Clerk

KENNIS EARL GATSON,
Petitioner-Appellant
v.

LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,

CRIMINAL

Respondent-Appellee

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:18-CV-974

Before DENNIS, SOUTHWICK, and ENGELHARDT, Circuit Judges.
PER CURIAM:
Kennis Earl Gatson, Texas prisoner # 1702500, was convicted of
aggravated sexual assault with a deadly weapon, and he is serving a 75-year
sentence.

He now seeks a certificate of appealability (COA) to appeal the

denial of his 28 U.S.C. § 2254 petition challenging this conviction. Gatson
maintains that he has established his actual innocence, which would permit
the district court to consider his procedurally defaulted claim that trial counsel

* Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.

No. 19-10571
rendered ineffective assistance by failing to pursue DNA testing prior to trial.
In addition, he contends that counsel rendered ineffective assistance by failing
to investigate and call witnesses and that the attorney failed to put the State’s
case to meaningful adversarial testing. Gatson also challenges the district
court’s failure to hold an evidentiary hearing.
To obtain a COA, Gatson must make “a substantial showing of the denial
of a constitutional right.” 28 U.S.C. § 2253(c)(2); Slack v. McDaniel, 529 U.S.
473, 483 (2000). To satisfy that burden, he must show “that reasonable jurists
would find the district court’s assessment of the constitutional claims
debatable or wrong,” Slack, 529 U.S. at 484, or that the issues he presents “are
adequate to deserve encouragement to proceed further.” Miller-El v. Cockrell,
537 U.S. 322, 327 (2003). With respect to claims dismissed on procedural
grounds, Gatson is required to demonstrate “that jurists of reason would find
it debatable whether the petition states a valid claim of the denial of a
constitutional right and that jurists of reason would find it debatable whether
the district court was correct in its procedural ruling.” Slack, 529 U.S. at 484.
Gatson has not made the requisite showing. Accordingly, his motion for a COA
is DENIED. We construe the motion for a COA with respect to the district
court’s failure to hold an evidentiary hearing as a direct appeal of that issue,
see Norman v. Stephens, 817 F.3d 226. 234 (5th Cir. 2016), and AFFIRM.

2

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
KENNIS EARL’ GATSON, # 1702500,
Petitioner,
vs.
LORIE DAVIS, Director,
Texas Department of Criminal
Justice, Correctional Institutions
Division,
Respondent.

)
\
)
)
)
)
)

No. 3:18-CV-974-M (BH)
Referred to U.S. Magistrate Judge

)
)
)

JUDGMENT
This action came on for consideration by the Court, and the issues having been duly
considered and a decision duly rendered,
It is ORDERED, ADJUDGED and DECREED that:
1.

The petition for habeas corpus relief pursuant to 28 U.S.C. § 2254 is DENIED

with prejudice.
2.

The Clerk shall transmit a true copy of this Judgment and the Order Accepting the

Findings and Recommendation of the United States Magistrate Judge to all parties.
SIGNED this 29th day of April, 2019.

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
IfENNIS EARL GATSON, # 1702508,
Petitioner,
vs.
LORIE DAVIS, Director,
Texas Department of Criminal
Justice, Correctional Institutions
Division,
Respondent.

)
)
)
)
)
)
)
)
)
)

No. 3:18-CV-974-M (BH)
Referred to U.S. Magisfrate Judge

ORDER ACCEPTING FTNDINGS AND RECOMMENDATION
OF THE UNITED STATES MAGISTRATE JUDGE
After reviewing all relevant matters of record in this case, including the Findings, Conclusions, and Recommendation of the United States Magistrate Judge and conducting a de novo review
of those parts of the Findings
opinion that the Findings an

and Conclusions to which objections have been made, I am of the

d Conclusions of the Magistrate Judge are correct and they are accepted

as the Findings and Conclusions of the Court. For the reasons stated in the Findings, Conclusions,
and Rec

ommendation of the United States Magistrate Judge, the petition for habeas corpus relief

under 28 U.S.C. § 2254 is DENIED with prejudice.
In accor

dance with Fed. R. App. P. 22(b) and 28 U.S.C. § 2253(c) and after considering the

mendation of the Magistrate Judge, the petitioner is DENIED a
record in this case and the recotn
Certificate of Appealability. The Court adopts and incorporates by reference the iViagisirate JUQge's
findings, Conclusions and Recommendation m support of its finding that the petitioner has failed
to show (1) that reasonable junsi

5 would find this Court’s “assessment of the constitutional claims

debatable or wrong,” or (2) that reasonable jurists would find “it debatable whetiier the petition states

1

a valid claim of the denial of a constitutional right” and “debatable whether [this Court] was correct
in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000).
Ifthe petitioner files anotice of appeal, he must pay the S505.00 appellate filing fee or submit
a motion to proceed in forma pauperis and a properly signed certificate of inmate trust account.
?

SIGNED this 29th day of April, 2019.

/?
&

2

wwujk. I/v IaJ \
BARA M. G. B^YNN
EF JUDGE

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
KENNIS EARL GATSON, # 1702500,
Petitioner,

)

vs.

)

LORIE DAVIS, Director,
Texas Department of Criminal
Justice, Correctional Institutions
Division,
Respondent.

)
)
)
)
)
)

)
)

No. 3:18-CV-974-M (BH)
Referred to U.S. Magistrate Judge

FINDINGS. CONCLUSIONS. AND RECOMMENDATION
By Special Order 3-251, this habeas case has been referred for findings, conclusions, and
recommendation. Based on the relevant findings and applicable law, the petition for writ of habeas
corpus under 28 U.S.C. § 2254 should be DENIED with prejudice.
I. BACKGROUND
Kennis Earl Gatson (Petitioner), an inmate currently incarcerated in the Texas Department
ofCriminal Justice-Correctional Institutions Division (TDC J-CID), filed a petition for writ ofhabeas
corpus under 28 U.S.C. § 2254 challenging his conviction for aggravated sexual assault with a
deadly weapon, enhanced by two prior felony convictions. The respondent is Lorie Davis, Director,
TDCJ-CID (Respondent).
A.

State Court Proceedings
Petitioner was charged with aggravated sexual assault with a deadly weapon, and two prior

felony convictions were alleged for the enhancement of punishment. (See doc. 20-1 at 5.) A jury
found him guilty, and he was sentenced to seventy-five years’ confinement. {See id. at 41-42.) On
May 30, 2012, the Fifth District Court of Appeals affirmed the judgment. {See
http://www.search.txcourts.gov/Case.aspx?cn=05-ll-00392-CR&coa=coa05.)

p
On October 24, 2012, the Texas Court of Criminal Appeals (TCCA) refused Petitioner’s
petition for discretionary review (PDR ). (See id.) He filed an application for state writ of habeas
corpus on September 11,2013. (See doc. 21-23 at 6-17.) It was denied by the TCCA on March 21,
2018, without a written order on the findings of the trial court without a hearing. (See doc. 21-14.)
B.

Substantive Claims
Petitioner’s habeas petition, received on April 13, 2018, appears to raise these grounds:
(1) Counsel’s ineffectiveness constructively denied Petitioner counsel, so prejudice should

be presumed under United States v. Cronic, 466 U.S. 648 (1984);
(2) Counsel was ineffective for failing to:
(a) investigate;
(b) cross-examine or call witnesses; and
(c) develop a defense at sentencing; and
(3) Petitioner is actually innocent due to his counsel’s failure to request further DNA testing.
(See doc. 3 at 6; doc. 10 at 14-22.) Respondent filed a response on September 5,2018. (See doc. 22).
Petitioner filed a reply on September 25, 2018. (See doc. 23.)
II. APPLICABLE LAW
Congress enacted the Antiterrorism and Effective Death Penalty Act of 1996 (AEDPA), Pub.
L. 104-132, 110 Stat. 1217, on April 24, 1996. Title I of the Act applies to all federal petitions for
habeas corpus filed on or after its effective date. Lindh v. Murphy, 521 U.S. 320, 326 (1997).
Because Petitioner filed his petition after its effective date, the Act applies.
Title I ofAEDPA substantially changed the way federal courts handle habeas corpus actions.
Under 28 U.S.C. § 2254(d), as amended by AEDPA, a state prisoner may not obtain relief

2

with respect to any claim that was adjudicated on the merits in State court
proceedings unless the adjudication of the claim —
(1) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme
Court of the United States; or
(2) resulted in a decision that was based on an unreasonable determination
of the facts in light of the evidence presented in the State court proceeding.
“In the context of federal habeas proceedings, a resolution (or adjudication) on the merits is a term
of art that refers to whether a court’s disposition of the case was substantive, as opposed to
procedural.” Miller v. Johnson, 200 F.3d 274, 281 (5th Cir. 2000).
Section 2254(d)(1) concerns pure questions of law and mixed questions of law and fact.
Martin v. Cain, 246 F.3d 471, 475 (5th Cir. 2001). A decision is contrary to clearly established
federal law within the meaning of § 2254(d)(1) “if the state court arrives at a conclusion opposite
to that reached by [the Supreme Court] on a question of law or if the state court decides a case
differently than [the] Court has on a set of materially indistinguishable facts.” Williams v. Taylor,
529 U.S. 362,412-13 (2000). As for the “unreasonable application” standard, a writ must issue “if
the state court identifies the correct governing legal principle from [the] Court’s decisions but
unreasonably applies that principle to the facts of the prisoner’s case.” Id. at 413; accord Penry v.
Johnson, 532 U.S. 782, 792 (2001). Likewise, a state court unreasonably applies Supreme Court
precedent if it “unreasonably extends a legal principle from [Supreme Court] precedent to a new
context where it should not apply or unreasonably refuses to extend that principle to a new context
where it should apply.” Williams, 529 U.S. at 407. “[A] federal habeas court making the
‘unreasonable application’ inquiry should ask whether the state court’s application of clearly
established federal law was objectively unreasonable.” Id. at 409; accord Penry, 532 U.S. at 793.
As a condition for obtaining habeas corpus relief from a federal court, a state prisoner must show
3

that the state court s ruling on the claim being presented in federal court was so lacking in
justification that there was an error well understood and comprehended in existing law beyond any
possibility for fairminded disagreement. Harrington v. Richter, 562 U.S. 86, 102 (2011). A
petitioner must show that there was no reasonable basis for the state court to deny relief. Id. at 98.
A federal district court must be deferential to state court findings supported by the record.
See Pondexterv. Dretke, 346 F.3d 142,149-152 (5th Cir. 2003). The AEDPA has modified a federal
habeas court’s role in reviewing state prisoner applications to prevent federal habeas “retrials and
to ensure that state court convictions are given effect to the extent possible under law. Beel v. Cone,
535 U.S. 685, 693 (2002); see Williams, 529 U.S. at 404. A state application that is denied without
written order by the Texas Court of Criminal Appeals is an adjudication on the merits. Singleton v.
Johnson, 178 F. 3d 381,384 (5thCir. 1999); Ex parte Torres, 943 S.W.2d469,472 (Tex. Grim. App.
1997) (holding a denial signifies an adjudication on the merits while a “dismissal” means the claim
was declined on grounds other than the merits).
Section 2254(d)(2) concerns questions of fact. Moore v. Johnson, 225 F.3d 495, 501 (5th
Cir. 2000). Under § 2254(d)(2), federal courts “give deference to the state court’s findings unless
they were ‘based on an unreasonable determination of the facts in light of the evidence presented
in the state court proceeding.’” Chambers v. Johnson, 218 F.3d 360, 363 (5th Cir. 2000). The
resolution of factual issues by the state court is presumptively correct and will not be disturbed
unless the state prisoner rebuts the presumption by clear and convincing evidence. 28 U.S.C.
§ 2254(e)(1).
III. INEFFECTIVE ASSISTANCE OF COUNSEL
The Sixth Amendment to the United States Constitution provides in relevant part that “[i]n
all criminal prosecutions, the accused shall enjoy the right... to have the Assistance of Counsel for
4

his defense.” U.S. Const, art. VI. It guarantees a criminal defendant the effective assistance of
counsel. Strickland v. Washington, 466 U.S. 668 (1984); Evittsv. Lucey, 469 U.S. 387,396(1985).
To successfully state a claim of ineffective assistance of counsel, the prisoner must demonstrate that
counsel’s performance was deficient and that the deficient performance prejudiced his or her
defense. Id. at 687. A failure to establish either prong of the Strickland test requires a finding that
counsel’s performance was constitutionally effective. Id. at 696. The Court may address the prongs
in any order. Smith v. Robbins, 528 U.S. 259, 286 n.14 (2000).
In determining whether counsel’s performance is deficient, courts “indulge a strong
presumption that counsel’s conduct falls within the wide range of reasonable assistance.”
Strickland, 466 U.S. at 689. “The reasonableness of counsel’s actions may be determined or
substantially influenced by the defendant’s own statements or actions.” Id. at 691. To establish
prejudice, a Petitioner must show that “there is a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would have been different. A reasonable
probability is a probability sufficient to undermine confidence in the outcome.” Id. at 694; Williams
v. Taylor, 529 U.S. 362, 393 n.17 (2000) (inquiry focuses on whether counsel’s deficient
performance rendered the result of the trial unreliable or the proceeding fundamentally unfair).
Reviewing courts must consider the totality of the evidence before the finder of fact in assessing
whether the result would likely have been different absent counsel’s alleged errors. Strickland, 466
U.S. at 695-96.
To show prejudice in the sentencing context, Petitioner must demonstrate that the alleged
deficiency of counsel created a reasonable probability that his or her sentence would have been less
harsh. See Gloverv. UnitedStates, 531 U.S. 198, 200 (2001) (holding “that if an increased prison
term did flow from an error [of counsel] the petitioner has established Strickland prejudice”). One
5

A

&

cannot satisfy the second prong of Strickland with mere speculation and conjecture. Bradford v.
Whitley, 953 F.2d 1008, 1012 (5th Cir. 1992). Conclusory allegations are insufficient to obtain
relief. United States v. Woods, 870 F.2d285,288 n.3 (5th Cir. 1989); United States v. Daniels, 12
F. Supp. 2d 568, 575-76 (N.D. Tex. 1998); see also Miller v. Johnson,200F3dat2$2 (holding that
“conclusory allegations of ineffective assistance of counsel do not raise a constitutional issue in a
federal habeas proceeding”).
A.

Cronic standard
Petitioner appears to argue that he was constructively denied counsel based on his counsel’s

ineffectiveness, so prejudice should be presumed under United States v. Cronic, 466 U.S. 648
(1984). (See doc. 3 at 6; doc. 10 at 16.)
In Cronic, the Supreme Court recognized that a defendant might be constructively denied
counsel even though an attorney had been appointed to represent him. “A constructive denial of
counsel occurs in only a very narrow spectrum ofcases where the circumstances leading to counsel’s
ineffectiveness are so egregious that the defendant was in effect denied any meaningful assistance
at all.” Gochicoa v. Johnson, 238 F.3d 278, 284 (5th Cir. 2000) (citation omitted). Apart from a
constitutional error of such magnitude that “no amount of showing of want of prejudice would cure”
the error, “there is generally no basis for finding a Sixth Amendment violation” in the absence of
a showing of “how specific errors of counsel undermined the reliability of the finding of guilt.”
Cronic, 466 U.S. at 659 & n.26. The presumed prejudice standard is reserved for “circumstances
that are so likely to prejudice the accused that the cost of litigating their effect in a particular case
is unjustified, such as (1) a “complete denial of counsel ... at a critical stage” of the criminal
proceedings; (2) a complete failure of counsel “to subject the prosecution’s case to meaningful
adversarial testing”; and (3) “circumstances [that] made it so unlikely that any lawyer could provide
6

effective assistance”. See id. at 658-662; accord Bell v. Cone, 535 U.S. 685,695-96(2002); Austin
v. Davis, 647 F. App’x 477, 489-91 (5th Cir. 2016). The Cronic standard does not apply when
defense counsel has merely failed to oppose the prosecution at specific points of the proceedings;
it applies only when counsel has entirely failed to challenge the prosecution’s case. Bell, 535 U.S.
at 697. A petitioner has the burden to show that he was constructively denied counsel. See
Childress v. Johnson, 103 F.3d 1221, 1228, 1231-32 (5th Cir. 1997).
Here, counsel actively conducted voir dire, {see doc. 20-4 at 76-112), and cross-examined
the prosecution’s witnesses at trial, {see doc. 20-5 at 58-84, 94, 102-04, 125-27, 155-59, 168-71,
185-87,189,198-200,201,208-09,240-44,248). He made objections during the trial, {see doc. 205 at 42, 86, 112,197; doc. 20-6 at 20), moved for an instructed verdict of not guilty, {see doc. 20-5
at 249), and made a closing argument, {see doc. 20-6 at 10-15). Petitioner has not shown a complete
failure by counsel to test the State’s case, or that counsel failed to oppose the prosecution throughout
the proceeding as a whole. See Haynes v. Cain, 298 F.3d 375, 380-81 (5th Cir. 2002) (counsel’s
concession of guilt in a strategic attempt to avoid the death penalty did not raise a presumption of
prejudice under Cronic). Petitioner therefore has failed to demonstrate that he was constructively
denied counsel such that the Cronic standard should be used in assessing counsel’s performance.
His claims are properly analyzed under the Strickland standard.
Moreover, the TCCA denied Petitioner’s claim in the state habeas proceedings. He fails to
demonstrate the state court decision was contrary to, or involved an unreasonable application of,
clearly established federal law, or was based on an unreasonable determination of facts. Williams,
529 U.S. at 402-03 (2000). He fails to show there was no reasonable basis for the TCCA to deny
relief. Richter, 562 U.S. at 98.

7

B.

Failure to investigate
Petitioner asserts counsel was ineffective for failing “to investigate mitigating evidence that

should have been put in front of the fact finder.” (Doc. 3 at 6.)
“Counsel has a duty to make a reasonable investigation of defendant’s case or to make a
reasonable decision that a particular investigation is unnecessary.” Ransom v. Johnson, 126 F.3d
716,723 (5th Cir. 1997) (citing Strickland, 466 U.S. at 691). However, “[a]n applicant ‘who alleges
a failure to investigate on the part of his counsel must allege with specificity what the investigation
would have revealed and how it would have altered the outcome of the trial. ’ ” Trevino v. Davis, 829
F.3d 328, 338 (5th Cir. 2016) (quoting Gregory v. Thaler, 601 F.3d 347, 352 (5th Cir. 2010).
Petitioner wholly fails to meet his burden. He simply reasserts unsupported allegations from
his state habeas petition that:
had counsel interviewed the state’s witnesses and experts counsel would have
uncovered evidence to support [Petitioner’s] claim of innocenfce]. (a) talk with
forensic experts concerning any biological evidence; (b) talked with the alleged
victim. Counsel would have discovered that [Petitioner] knew her deceased room­
mate and that [Petitioner] was in the CW’s house with her room-mate drinking beer;
(c) read the alleged victim’s written statement, counsel would have known the CW
was giving false testimony.
(See doc. 10 at 16.) Although he faults his counsel for failing to interview “the state’s witnesses and
experts” as well as “forensic experts concerning biological evidence,” Petitioner fails to state what
information or evidence those interviews would have produced. He also fails to show how
interviewing the alleged victim and reading her written statement would show that she was “giving
false testimony.” This is insufficient to demonstrate counsel was ineffective. Trevino, 829 F.3d at
338. Petitioner also appears to indicate that the victim knew him because he knew her deceased
roommate and had previously been in their house, but he provides no support for this statement. The
victim testified under oath that she did not know the Petitioner. (See doc. 20-5 at 51-52.)
8

&

Petitioner’s unsupported claims are insufficient to demonstrate his counsel provided ineffective
assistance. See id.; see also Schlang v. Heard, 691 F.2d 796, 799 (5th Cir. 1982) (stating that
conclusory claims are insufficient to entitle a habeas corpus petitioner to relief). Nor has he shown
that he was prejudiced due to counsel’s alleged actions. Strickland, 466 U.S. at 694.
Additionally, Petitioner’s counsel’s affidavit in the state habeas proceedings stated:
I was appointed to represent [Petitioner] by the Honorable Michael Snipes. I met
with [Petitioner] on several occasions and each of which he denied guilt and wanted
to fight the charges. I explained the points in his favor as well as the factors against
him.
As [Petitioner] and I prepared for trial, the main focus of our defense was to put the
States of Texas to its burden of proving [Petitioner] guilty beyond a reasonable
doubt. This strategy was developed because of a number of factors.
First, [Petitioner] had no alibi witnesses that could place him at a different location
at the time of the offense. Once, I informed him that if he took the stand and
testified, his prior felony convictions would be admissible.
Furthermore,
[Petitioner] made the decision very early in the process that he wanted to invoke his
fifth amendment right not to testify. Additionally, although not an absolute, there
was a bit of apprehension in putting his character at issue. Although he had no prior
sex crimes; he did have a prior burglary of a habitation that was part of what took
place in this case.
We weighed those factors against the fact that the complainant could not identify
[Petitioner]. Although she claimed her and [Petitioner] were alone together for
approximately two hours, she was still not able to identify him. She described
having a lengthy conversation with him and then drinking a beer together but could
not identify him. The forensic evidence was some good some bad. Based on these
factors and other we believed reasonable doubt had been raised.
In this case, every decision I made I fully explained to [Petitioner] why I handled
each piece of evidence a particular way and the strategy behind it. [Petitioner] was
never left in the dark about anything in this matter.
(Doc. 21 -22 at 9-10.) Denying Petitioner’s claim in the state habeas proceedings, the TCCA stated:
[Counsel] advised [Petitioner] of every decision he made and why he made that
decision and handled a particular piece of evidence in a certain manner and his
strategy behind his actions.

9

m
Further, [Petitioner] fails to state what further investigation would have shown.
While [Petitioner] points out numerous things counsel did or failed to do during trial,
[counsel] states that he advised [Petitioner] why he was taking that action and
explained his reasons for doing so. Counsel’s acts were a matter of trial strategy.
Further, [Petitioner] has failed to state how the case would have differed had counsel
done what [Petitioner] asserts should have been done.
(Doc. 21-22 at 6-7.) Petitioner fails to demonstrate the state court decision was contrary to, or
involved an unreasonable application of, clearly established federal law, or was based on an
unreasonable determination of facts. Williams, 529 U.S. at 402-03 (2000). He fails to show there
was no reasonable basis for the TCCA to deny relief. Richter, 562 U.S. at 98.
C.

Failure to cross-examine or call witnesses
Petitioner argues counsel was ineffective for “failfing] to... cross-examine witnesses or call

any witnesses for the defense.” (Doc. 10 at 14.) In his state habeas petition, Petitioner listed this
issue only under his general claim that his counsel’s representation fell below the Cronic standard.
See doc. 21-23 at 12. He did not raise it as an independent claim. A petitioner must fully exhaust
state remedies by fairly presenting the factual and legal basis of any claim to the highest state court
for review before seeking federal habeas relief. See28U.S.C. § 2254(b); Johnson v. Cain, 712F.3d
227,231 (5th Cir. 2013). Because Petitioner did not raise the claim as an independent ground in his
state habeas application, it appears to be unexhausted. Because he tangentially raised the issue in
his state habeas petition, however, the merits of the issue are also addressed.
Although Petitioner argues his counsel failed to cross-examine witnesses, he does not
identify any specific witness his counsel failed to cross-examine, much less how he was prejudiced
by the alleged failure. (See doc. 10 at 14.) This conclusory argument is insufficient to provide
habeas relief. See Miller, 200 F.3d at 282; Schlang, 691 F.2d at 799; Woods, 870 F.2d at 288 n.3.
Similarly vague is Petitioner’s claim that counsel was ineffective for failing to call any

10

a

witnesses for his defense. He does not identify any witnesses, either in his federal habeas petition
or memorandum that his attorney should have called. (See generally doc 3, doc. 10.) In his reply
brief, Petitioner states for the first time that “his mother would have proved the petitioner did not
commit the sexual assault and counsel failed to present it to the jury.” (Doc. 23 at 13.) Courts may
decline to consider ineffective assistance of counsel claims asserted for the first time in a reply. See
Bonds v. Quarterman, No. 4:07-CV-674,2008 WL 4367294, at *3 n. 1 (citing Yohey v. Collins, 985
F.2d 222, 225 (5th Cir. 1993); see also United States v. Cervantes, 132 F. 3d 1106, 1111 (5th Cir.
1998). Even if considered, however, it lacks merit. A petitioner who alleges ineffective assistance
of counsel for failing to call a witness must “name the witness, demonstrate that the witness was
available to testify and would have done so, set out the content of the witness’s proposed testimony,
and show that the testimony would have been favorable to a particular defense.” Day v. Quarterman,
566 F.3d 527,538 (5th Cir.2009). Petitioner does not show that his mother was available to testify,
or would have done so, or the content of her proposed testimony. See doc 23 at 13. This is
insufficient to demonstrate counsel provided ineffective assistance. Day, 566 F.3d at 538.
Moreover, to the extent the issue was raised in Petitioner’s Cronic claim in his state habeas
petition, the TCCA denied the claim. Petitioner fails to demonstrate the state court decision was
contrary to, or involved an unreasonable application of, clearly established federal law, or was based
on an unreasonable determination of facts. Williams, 529 U.S. at 402-03 (2000). He fails to show
there was no reasonable basis for the TCCA to deny relief. Richter, 562 U.S. at 98.
D.

Failure to develop a defense at sentencing
In his § 2254 petition, Petitioner argues that “counsel did not develop a defense at

sentencing.” (Doc. 3 at 6.) In his memorandum, he specifically alleges that his counsel... “failed
to cross-examine the alleged victim at sentencing and call any witnesses on Petitioner’s behalf at
11

sentencing.” (Doc. 10 at 6.) As explained above, Petitioner’s general claim that his counsel failed
to call witnesses on his behalf is insufficient to demonstrate counsel provided ineffective assistance.
Day, 566 F.3d at 538; see also Sayre v. Anderson, 238 F.3d 631, 635-36 (5th Cir. 2001)
(“Complaints of uncalled witnesses are not favored in federal habeas corpus review because
allegations of what a witness would have testified are largely speculative. . . . Where the only
evidence of a missing witnesses’ testimony is from the defendant, this Court views claims of
ineffective assistance with great caution.”) (citations omitted.).
Regarding Petitioner’s claim that his counsel was ineffective for failing to cross-examine the
victim at sentencing, he provides no further support for this general claim. He fails to demonstrate
that “there is a reasonable probability” that, but for his counsel’s failure to cross-examine the victim,
“the result of the proceeding would have been different.” Strickland, 466 U.S. at 694. For this
reason, the claim must fail. See Id.; Williams, 529 U.S. at 393 n.17.
Furthermore, Petitioner’s counsel’s affidavit in the state habeas proceedings stated:
With regard to why I did not question the complainant in the punishment hearing, it
was because this woman was a sympathetic figure in the eyes of the.jury in my
opinion. By the verdict, it was apparent the jury believed her version of the facts. To
try and aggressively question her at the punishment phase would not have benefitted
[Petitioner]. To have the jury feeling as though I was re-victimizing the complainant
would not have been a good thing.
Finally, with regard to punishment evidence favorable to [Petitioner], I can only put
forth what was given to me. Since [Petitioner] was unable to provide me information
that would have put his life in a favorable light, I could not give the jury information
that I did not have.
(Doc.21-21 at 14.)
The TCCA denied this claim in the state habeas proceeding, stating:
[Counsel] did not question the complainant at punishment because, in his opinion,
the jury viewed her as a sympathetic figure. The verdict indicated that the jury
believed her. Aggressively questioning her at punishment would not have benefitted
12

[Petitioner].
[Counsel] did not present any witnesses at punishment or submit any of [Petitioner’s]
“positive attributes” because [Petitioner] did not provide him any such evidence.

[Petitioner] has failed to prove that he received ineffective assistance of counsel.
[Petitioner] did not prove that counsel’s representation fell below an objective
standard of reasonableness. Nor did he prove that there is a reasonable probability
that, but for counsel’s unprofessional errors, the result of the proceeding would have
differed.
[Petitioner] has not been denied any of the rights guaranteed him by the United
States -Constitution or the Texas Constitution. [Petitioner] is legally confined and
restrained.
(Doc. 2121 at 12.) Petitioner fails to demonstrate the state court decision was contrary to, or
involved an unreasonable application of, clearly established federal law, or was based on an
unreasonable determination of facts. Williams, 529 U.S. at 402-03 (2000). He fails to show there
was no reasonable basis for the TCCA to deny relief on his ineffective assistance of counsel claims.
Richter, 562 U.S. at 98.
IV. ACTUAL INNOCENCE
Petitioner appears to argue that he is actually innocent because his counsel provided
ineffective assistance by failing to request further additional DNA testing. See doc. lOat 18-21.
A.

Exhaustion
As stated, a petitioner must fully exhaust state remedies by fairly presenting the factual and

legal basis of any claim to the highest state court for review before seeking federal habeas relief.
See 28 U.S.C. § 2254(b); Johnson, 712 F.3d at 231. A Texas prisoner may satisfy this requirement
by presenting both the factual and legal substance of his claims to the Texas Court of Criminal
Appeals in an application for a state writ of habeas corpus under Article 11.07 of the Texas Code

13

r>
of Criminal Procedure. Whitehead v. Johnson, 157F.3d384,387(5thCir. 1998). Failure to exhaust
is generally a procedural bar to federal habeas review, although the federal court may excuse the bar
if the petitioner can demonstrate either cause or prejudice for the default or that the court’s failure
to consider the claims will result in a fundamental miscarriage ofjustice. Ries v. Quarterman, 522
F.3d 517, 523-24 (5th Cir. 2008) (citing Coleman v. Thompson, 501 U.S. 722, 750 (1991)).
The State argues that Petitioner failed to exhaust this claim. {See doc. 22 at 22-24.) It argues
that although he “raised an actual innocence claim and multiple ineffectiveness of trial counsel
claims on state habeas, he did not raise the same actual innocence claim or the underlying ineffective
assistance claim that he does now. Specifically, he did not allege that he was actually innocent
because his trial counsel was ineffective for failing to request additional DNA testing, as he does
here.... Further, he did not raise any claim on state habeas regarding the need for additional DNA
testing or any additional DNA results from those presented at trial.” {Id. at 23.)
Petitioner did not raise this issue to the TCCA, either in his PDR, see doc. 20-20, or in his
pro se response to his counsel’s Anders brief. {See doc. 20-17.) In Ground Four of his state habeas
petition, he argued:
[Petitioner] is actually innocent of committing the charged crime. His trial counsel
was ineffective, resulting in [Petitioner] being found guilty and sentenced to
seventy-five years’ imprisonment. There are many things that show that [Petitioner]
is actually innocent of this crime. The alleged victim could not identify [Petitioner]
as the perpetrator. (RR4:51). In fact, she stated that it was [Petitioner’s] counsel who
sexually assaulted her, when asked by the prosecution to identify him. (RR4:50). The
alleged victim also stated that the perpetrator had gold teeth. (RR4:196). [Petitioner]
does not have gold teeth.
Paul Brown, the driver of the vehicle the perpetrator hit as he was fleeing the scene,
testified that he did not see the perpetrator in the courtroom. (RR4:112).
Additionally, there is DNA evidence that proves that an “unknown male” committed
the offense. Testing of a swab from the alleged victim did not contain [Petitioner’s]
DNA. The bed sheet from the bed where the alleged assault occurred, did not contain
14

[Petitioner’s] DNA, not even one epithelial cell (skin cell). (RR4:244).
The perpetrator was said to have worn a red cap. This cap was found in the alleged
victims vehicle after the accident. On the cap, the forensic testing lab found semen.
However, the semen did not contain [Petitioner’s] DNA, the DNA belonged to an
unknown male. (RR4:224,241-242).
Had [Petitioner’s] trial counsel not been ineffective, [Petitioner] would have been
found not guilty. (See Grounds One through Three).
Doc. 21-23 at 65-66. Although Petitioner does state that his trial counsel was ineffective in his
actual innocence claim (Ground Four), he relates the ineffective-assistance argument to his
“Grounds One through Three.” See id. Grounds One, Two, and Three of Petitioner’s state habeas
petition did not concern actual innocence. See id. at 61-65. Furthermore, Petitioner’s actual
innocence claim in his state habeas petition does not reference his counsel ’ s failure to request further
DNA testing. See id. A clear reading of Ground Four demonstrates that the state habeas court
appropriately addressed the claim as a “challenge [to] the sufficiency of the evidence presented at
[Petitioner’s] trial for aggravated sexual assault.” (Doc. 21-23 at 75.)
Because the Petitioner’s claim of actual innocence in the instant federal habeas petition is
not substantially equivalent of the claim presented to the TCCA, it does not meet the “fairly
presented” requirement and is therefore not properly exhausted. See Whitehead, 157 F.3d at 387.
This failure to exhaust state court remedies constitutes a procedural default that bars consideration
of the claim. Morris v. Drekte, 413 F.3d 484, 491-92 (5th Cir. 2005); Ries, 522 F.3d at 523-24.
Petitioner has not alleged or demonstrated cause for the default and actual prejudice, or that a
fundamental miscarriage of justice would occur if the Court refused to consider his claims. See
Coleman, 501 U.S. at 750.
B.

Exception
Petitioner cites to Schlup v. Delo, 513 U.S. 298 (1995), and argues that the “actual
15

innocence” exception to the rules regarding procedural bar applies in this case and allows
consideration of his petition. (See doc. 10 at 19-20; doc 23 at 3-7.)
The Supreme Court has held that “actual innocence, if proved, serves as a gateway through
which the petitioner may pass whether the impediment is a procedural bar ... or expiration of
theAEDPA statute of limitations^” McQuiggin v. Perkins, 569 U.S. 383, 386 (2013). It has
explained that “tenable actual-innocence gateway pleas are rare; ‘a petitioner does not meet the
threshold requirement unless he persuades the district court that, in light of the new evidence, no
juror, acting.reasonably, would have voted to find him guilty beyond a reasonable doubt.’” Id.
(citing Schlup, 513 U.S. at 298); see also House v. Bell, 547 U.S. 518,538 (2006) (emphasizing that
the Schlup standard is “demanding” and seldom met). A credible claim of actual innocence requires
the “petitioner to support his allegations of constitutional error with new reliable evidence- whether
it be exculpatory scientific evidence, trustworthy eyewitness accounts, or critical physical
evidence-that was not presented at trial.” Schlup, 513 U.S. at 324.
Petitioner does not specify the DNA evidence that allegedly demonstrates he is actually
innocent. (See doc. 3 at 6; doc. 10 at 18-21.) He references his motion for post-conviction forensic
DNA testing that he filed with the trial court, in which he requested further DNA testing because
“no DNA fluids had been left by [the victim’s] attacker pertaining to a sexual assault.” (See doc.
10 at 20; doc. 21-3 at 2.) The trial court ordered the testing. (See doc. 21-7, 21-8, 21-9.) The
additional DNA tests demonstrated that no biological material from Petitioner was found in the
victim’s mouth. (See doc. 21-13.) These results fail to demonstrate Petitioner is actually innocent
under the Schlup, however. Furthermore, the fact that no DNA from Petitioner was found in the
victim’s mouth was presented at trial. (See doc. 20-5 at 243-44.) He has not even met the initial
requirement to present new evidence, much less shown that in light of new reliable DNA evidence
16

not presented at trial, no juror, acting reasonably, would have voted to find him guilty beyond a
reasonable doubt. Petitioner has failed to provide new “evidence of innocence so strong that a court
cannot have confidence in the outcome of the trial” in order to overcome the procedural bar. See
Schlup, 513 U.S. at 316.
VII. RECOMMENDATION
The petition for habeas corpus relief under 28 U.S.C. § 2254 should be DENIED with
prejudice.
SO RECOMMENDED on this 27th day of March, 2019.

IRMACARJ^LORAMIgEZ
/)
UNITED STATES MAGISTRATE JUDGE

INSTRUCTIONS FOR SERVICE AND
NOTICE OF RIGHT TO APPEAL/OBJECT
A copy of these findings, conclusions and recommendation shall be served on all parties in
the manner provided by law. Any party who objects to any part of these findings, conclusions and
recommendation must file specific written objections within 14 days after being served with a copy.
See 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b). In order to be specific, an objection must identify
the specific finding or recommendation to which objection is made, state the basis for the objection,
and specify the place in the magistrate judge’s findings, conclusions and recommendation where the
disputed determination is found. An objection that merely incorporates by reference or refers to the
briefing before the magistrate judge is not specific. Failure to file specific written objections will
bar the aggrieved party from appealing the factual findings and legal conclusions of the magistrate
judge that are accepted or adopted by the district court, except upon grounds of plain error. See
Douglass v. United Servs. Automobile Ass’n, 79 F.3d 1415, 1417 (5th Cir. 1996).

IRMA CARRILLO RAMIIpZ
~/J
UNITED STATES MAGISTRATE JUDGE

17

